               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         Mail Transport Equipment –
        Shortages of Pallets, Tubs, and
       Trays – Fall 2011 Mailing Season

                       Audit Report




                                         September 28, 2012

Report Number NL-AR-12-011
                                                                    September 28, 2012

                                                         Mail Transport Equipment –
                                              Shortages of Pallets, Tubs, and Trays –
                                                            Fall 2011 Mailing Season

                                                          Report Number NL-AR-12-011




BACKGROUND:
This report focuses on Mail Transport         Postal Service could have avoided
Equipment (MTE). MTE are containers,          purchases of less durable MTE
such as pallets, flat tubs and letter trays   totaling $11.1 million in FY 2011
that hold mail during transportation. The     and $15.6 million in FY 2012 had
U.S. Postal Service loans MTE to its          adequate planning and controls been in
customers for shipments through the           place. We also estimate that MTE
Postal Service and has spent about            purchases of $24.3 million in FY 2011
$426 million on MTE from fiscal years         and $23.6 million in FY 2012 are at risk
(FY) 2006 to 2011, covering over 149          of loss, theft, and misuse due to control
million pieces of MTE.                        weaknesses. Further, MTE shortages
                                              reflect poorly on the Postal Service’s
This audit was initiated in response to       brand and place revenue at risk and
mailers’ complaints about MTE                 less durable MTE raises safety
shortages during the fall 2011 mailing        concerns for mailers. Finally, we
season. Our objectives were to assess         determined that the Postal Service
these shortages and management                initiated efforts to improve management
controls over MTE.                            of MTE, including developing a system
                                              to track and monitor MTE.
WHAT THE OIG FOUND:
We confirmed that unprecedented MTE           WHAT THE OIG RECOMMENDED:
shortages existed at Postal Service           We recommended the Postal Service
facilities and mailers during the fall 2011   develop processes and procedures for
mailing season. This occurred because         effective planning of and budgeting for
management did not effectively plan to        MTE needs for the fall mailing season;
have sufficient quantities on hand nor        implement prior U.S. Postal Service
develop a risk mitigation plan to avoid       Office of Inspector General
shortages. Also, management has not           recommendations over MTE internal
fully developed and instituted adequate       controls; and develop processes and
controls for effective MTE management.        procedures to limit distribution and
The shortages were compounded by a            improve accountability of MTE provided
shrinking MTE budget. As a result, the        to mailers. We also recommended that
Postal Service and its mailers faced          management assess and implement
challenges in moving mail resulting in        industry best practices for inventory
customer complaints and emergency             control, considering the cost benefit.
purchases of less durable equipment to
meet the challenges. We determined the        Link to review the entire report
Date: September 28, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT

                           MAURA ROBINSON
                           VICE PRESIDENT, CONSUMER AND INDUSTRY
                           AFFAIRS
                               E-Signed by Robert Batta
                             VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Mail Transport Equipment – Shortages of
                           Pallets, Tubs, and Trays – Fall 2011 Mailing Season
                           (Report Number NL-AR-12-011)

This report presents the results of our audit of Mail Transport Equipment – Shortages of
Pallets, Tubs, and Trays – Fall 2011 Mailing Season (Project Number 12XG017NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Megan Brennan
    Cynthia Mallonee
    Cathy L. Moon
    Mark A. Guilfoil
    Laurie A. Timmons
    Dale E. Kennedy
    Susan A. Witt
    Corporate Audit and Response Management
Mail Transport Equipment –                                                                                         NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Mail Transport Equipment Shortages in the Fall 2011 Mailing Season ........................... 3

   Ineffective Planning and Risk Mitigation ...................................................................... 4

   Inadequate Controls Over Mail Transport Equipment Management ............................ 6

   Shrinking Mail Transport Equipment Budgets.............................................................. 7

   Management Actions ................................................................................................... 9

Recommendations ........................................................................................................ 10

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 11

Appendix A: Additional Information ............................................................................... 12

   Background ............................................................................................................... 12

   Objectives, Scope, and Methodology ........................................................................ 12

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Monetary and Other Impacts..................................................................... 17

Appendix C: Mailer Comments on Wood Pallets........................................................... 21

Appendix D: Best Practices ........................................................................................... 23

Appendix E: Other Mail Transport Equipment Initiatives ............................................... 26

Appendix F: Management’s Comments ........................................................................ 28
Mail Transport Equipment –                                                                           NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



Introduction

This report presents the results of our audit of Mail Transport Equipment (MTE) –
Shortages of Pallets, Tubs, and Trays – Fall 2011 Mailing Season (Project Number
12XG017NL000). The U.S. Postal Service Office of Inspector General (OIG) initiated
this audit based on mailers’ complaints about significant shortages of MTE experienced
throughout the U.S. Postal Service and mailer community during the fall 2011 mailing
season. 1 Our objectives were to assess these MTE shortages; and management
controls over the pallets, flat tubs, and letter trays used in the process. This audit
addresses operational and financial risks. See Appendix A for additional information
about this audit.

MTE are containers of various types used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, its mailers, and
other customers. The containers pictured below include pallets, tubs, and trays. 2




       Wood Slat                       Plastic                    Presswood                 Lightweight Plastic




      Fiberboard Letter Tray                     Plastic Letter Tray                         Flat Tub

The Postal Service loans MTE to commercial mailers (such as publishing, banking,
insurance, utility and advertising companies, and mailing houses) to use exclusively for
mail shipments through the Postal Service. The Postal Service spent about $426 million
on MTE from fiscal years (FY) 2006 to 2011, covering over 149 million pieces of MTE
consisting of mostly pallets, flat tubs, and letter trays.




1
  Mailer ordering patterns define the fall mailing season which begins in late-July as some mailers increase MTE
ordering for back-to-school advertisements and fall mail order catalogs. Increased demand from fall mailing season
ends in November although there may be peaks in other times of the year.
2
  Source for pictures: Postal Service MTE presentation dated May 14, 2012.
                                                            1
Mail Transport Equipment –                                                                             NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



Conclusion

We confirmed that unprecedented shortages of MTE existed at Postal Service facilities
and mailers during the fall 2011 mailing season — specifically shortages of pallets, flat
tubs, and letter trays. The Postal Service indicated that MTE shortages affected most
mailers and Postal Service facilities at the same time for all MTE types. 3 For example, in
October 2011, the on-hand average daily balances of flat tubs and trays in the MTE
Service Center (MTESC) network 4 were well below the average daily demand as shown
below.

                   October 2011 Balance and Demand Flat Tubs and Trays
                                            On-Hand Average Daily           Average Daily Demand
             MTE Type                             Balance
             Tubs                                  53,000                            145,000
                      5
             MM Trays                             430,000                            780,000
            Source: Postal Service.

Also, the on-hand average daily balance of pallets in October 2011 was about 96,000,
while the required pallets to meet the average daily demand was about 300,000.

This occurred because management did not effectively plan for sufficient quantities to
be on hand for use during the fall mailing season and did not develop a risk mitigation
plan to avoid the shortages. In addition, as previously reported by the OIG, 6
management has not fully developed and instituted adequate controls for effective
management of its MTE assets. We also found that the shortages were compounded by
a shrinking MTE budget.

As a result, the Postal Service and its mailers incurred significant operational challenges
resulting in numerous customer complaints and emergency purchases of unnecessary
and, in some cases, less durable, equipment. According to the Postal Service, the only
possible response to the sudden increases in demand during the 2011 fall mailing
season was to purchase cardboard trays and wooden pallets as the plastic trays and
pallets require about three months of lead time to begin deliveries. The MTE shortages
also resulted in additional labor and equipment costs for some mailers.

We determined the Postal Service could have avoided about $27 million in questionable
emergency purchases of less durable MTE during FYs 2011 and 2012 if adequate
3
  The Postal Service stated that mailers and facilities in “deficit” areas were more impacted than those in excess
areas (Mail usually moves from the east to west thus creating the western region having excess MTE while the
eastern region experiences MTE deficits).
4
  The network of Mail Transport Equipment Service Centers (MTESCs) process, repair, store, and distribute mail
transport equipment (MTE). Postal Service has 15 MTESCs nationwide.
5
  Letter trays are manufactured in either plastic or fiberboard and come in three sizes: (1) managed mail (MM), (2)
extended managed mail (EMM), and half-sized MM. EMM trays are half inch longer, quarter inch wider, and three
quarters inch taller than MM trays.
6
  Previously issued report on September 29, 2010 - Management of Mail Transport Equipment - National Analysis
(Report NL-AR-10-009).


                                                          2
Mail Transport Equipment –                                                                                  NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

planning and controls were in place. 7 Additionally, we estimate that about $48 million of
MTE purchased during FYs 2011 and 2012 is at risk of loss, theft, and misuse due to
control weaknesses. Further, MTE shortages could potentially reflect poorly on the
Postal Service’s brand and public image and place revenue at risk. Finally, the
purchase of less durable MTE (such as wood pallets) raises safety concerns for mailers.

We also noted that, in order to mitigate future MTE shortages, management initiated
efforts to improve management of MTE, including developing an automated system to
track and monitor MTE and purchasing additional MTE for the fall 2012 mailing season.

Mail Transport Equipment Shortages in the Fall 2011 Mailing Season

We concluded that during the fall 2011 mailing season the Postal Service experienced
unprecedented shortages of MTE for use in its facilities and at mailers. While Postal
Service associations and mailers initially reported pallet shortages, we confirmed that
letter trays and flat tubs were in short supply as well. According to Postal Service
officials, the demand for MTE increased significantly and rather quickly in 2011 and that
demand could not be supported by on hand inventory levels within the MTESC network
or by identified empty and available MTE at plants and other facilities. The Postal
Service stated that part of the reason for the shortages was that the mailers were
requesting significantly more MTE (they saw an increase in demand for all products) in
spite of the decline in mail volumes.

For example, in its MTESC network, the Postal Service identified:

   About 650,000 flat tubs in July 2011; 8 however, in October 2011 they were only able
    to account for about 53,000 flat tubs and the average daily demand for flat tubs at
    that time had increased to nearly 145,000.

   About 330,000 MM letter trays in July 2011. Although this inventory increased to
    over 430,000 in October 2011, average daily demand for the trays at that time
    increased to over 780,000.

   About 310,000 pallets in July 2011; however, in October 2011, they were only able
    to account for about 96,000 pallets within the MTESC network. 9 The average daily
    balance of on-hand pallets required to meet the national average daily demand in
    October 2011 was about 300,000 pallets, far short of the 96,000 pallets on hand at
    the time.


7
  The Postal Service stated that, although plastic is far more durable than wood and cardboard, several variables are
part of its best value analysis, including the total estimated time the item will be available for use in the Postal Service
network due to leakage (such as a plastic MTE being lost, stolen or misused); replacement cost; and the optimal mix
of plastic and less durable MTE, especially during the fall mailing season and to address emergency orders.
8
  Inventory data for flat tubs, trays and pallets cover the MTESC network only and represents the “average daily
balance” of on-hand inventory within the network throughout the stated month.
9
  The Postal Service advised that the MTESC network requires about three times the average daily demand of pallets
to be on-hand to meet all pallet requirements nationally and to be in a good operating position.


                                                             3
Mail Transport Equipment –                                                        NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

In addition, the Postal Service tracked total monthly demand for pallets as presented in
the graph below. Noticeably, the monthly demand for pallets surged in August 2011 and
continued to increase through October 2011. This represented a 4-year high in
demand for pallets and reflected an increase of 23 percent when compared to the same
period the year before. The Postal Service was unable to explain how or why there was
a 4-year high in MTE demand when mail volume has dramatically declined since 2007,
covering a total reduction in mail volume of over 44 billion pieces.

                                           Total Pallet Demand




               Source: Postal Service.

Overall, although demand increased, we determined that MTE shortages occurred
because of ineffective planning, continued control weaknesses, and budgetary shortfalls
described below in detail. According to the Postal Service, the relocation of five
MTESCs during the 2011 fall mailing season also impacted MTE management since
these centers had new facilities and new contractors with new employees.

Ineffective Planning and Risk Mitigation

We determined that management did not effectively plan to ensure sufficient MTE was
on hand for distribution to Postal Service facilities and its mailers to avoid disruptions to
mail processing operations during the fall 2011 mailing season. Further, management
did not develop an effective risk mitigation plan for MTE shortages as part of the
planning for the fall 2011 mailing season. Management acknowledged the difficulty in
managing the shortages and the rapid increase in MTE demand due to:

   Difficulty in compiling an accurate assessment of on hand inventory from the
    industry. According to the Postal Service, limited inventory and limited data visibility
    are further compounded by mailers obtaining MTE from plants (rather than the
    MTESC network, as applicable); mailer hand off of mail and MTE to business
    partners; and mailers’ reluctance to provide information for “on hand” MTE at
    mailers’ facilities.



                                                    4
Mail Transport Equipment –                                                                               NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



    Limited funding availability for purchases and replenishment of MTE inventories,

    Supplier requirements (specifically the lead time to obtain new and needed MTE), at
     times taking up to three months to begin delivery of plastic products.

    Lack of a reliable forecasting model to determine and validate the MTE demand for
     mailers, including the inability to obtain accurate and validated forecasted mail
     volumes from mailers.

According to industry best practices (see Appendix D), risk identification and mitigation
should be part of any short- and long-term forecasting and planning. Up until the fall
2011 mailing season, and despite the many efforts over the past two decades, some
identified risks related to MTE inventory and demand continued to persist. The Postal
Service did not mitigate all known risks (including a reduced MTE budget, concerns with
wood pallets, and the existence of a weak control environment over its MTE assets) and
did not take proper steps to ensure it would have sufficient proper quality and quantities
of MTE at the required places and time to meet its needs throughout the fall mailing
season.

For example, a core component of the planning and risk assessment process is to
effectively forecast demand 10 to ensure appropriate supply is on hand. However, the
Postal Service is unable to effectively identify MTE demand for mailers and required
purchases in advance of the fall mailing season due to limited data from mailers on
forecasted mail volume and the related demand for MTE. The Postal Service advised
that many mailers do not want to provide information about forecasted mail volume due
to concerns about proprietary information and competitors. Due to the lack of current,
complete, and meaningful mail volume data from mailers, the Postal Service is unable
to plan for mailers’ short and long-term MTE needs and can only rely on historical mailer
volumes, trends, and needs. Additionally, the Postal Service does not have complete
and timely information in its inventory and use of MTE at mailer facilities.

These data limitations on effective forecasting are further compounded by limited
visibility within the MTE network and at plants and mailers. Further, the Postal Service is
not able to readily anticipate mailers’ needs and re-deploy inventory within a short
timeframe to meet the demands. 11 This is further compounded by the need to
accurately correlate declining mail volume to MTE demands.




10
   Early forecasting is a key component of supply chain management and can be a valuable mechanism for bringing
the supply and demand for goods into convergence and reducing inventory levels and associated costs.
11
   The Postal Service noted that recent interaction with mailers concerning the implementation of the new MTEOR
system and supporting mailer agreement revealed that they are resistant to some of the steps proposed by the Postal
Service to increase accountability, including visits by the Postal Service, inventory reporting, or tracking of MTE flows
to business partners.


                                                           5
Mail Transport Equipment –                                                                       NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

We found in prior OIG reviews 12 that the Postal Service needs comprehensive, relevant,
and reliable information relating to MTE movements and inventory in order to have
adequate and necessary visibility of MTE at mailers and Postal Service facilities and to
adequately support planning and forecasting. However, the Postal Service still lacks a
comprehensive, nationwide system to provide for adequate visibility. Further, the Postal
Service continues to lack consistent, standardized, and universal collection of MTE use
and inventory data within Postal Service facilities and at mailers.

Although the Postal Service attempted to partially compensate for its lack of
comprehensive MTE data and limited visibility by requiring weekly MTE on-hand volume
counts at Postal Service plants, concerns still exist about the accuracy, reliability, and
completeness of those weekly on hand estimates. The Postal Service stated throughout
the audit that they were taking steps to improve weekly reporting of these estimated
MTE counts. They advised in September 2012 that their recent focus has improved
consistency of reporting and nearly 100 percent of facilities report each week. They are
now focusing on obtaining complete counts and accurate data entry. We have not
audited or validated the stated improvement in compliance with the weekly reporting
requirement.

The Postal Service also acknowledged their limited visibility of MTE and the related
costs. They calculated a number of scenarios regarding visibility and related costs to
show the potential impacts of the lack of visibility. For example, their analysis indicated
that if 5,000 of the large mailers each held 20 pallets of MTE in reserve, the Postal
Service would need $68.7 million to replace the MTE which is out of circulation within its
network.

Inadequate Controls Over Mail Transport Equipment Management

We also found that the Postal Service continues to have a weak control environment
relating to management of its MTE assets. They have started a number of corrective
actions, which are in process and highlighted in the Management Actions section of this
report. However, the Postal Service has not yet completed corrective actions on
recommendations from prior OIG reviews. 13 Based on responses to our prior reviews,
the Postal Service has not yet:

    Updated comprehensive MTE policies and procedures, guidance, and oversight that
     support national MTE requirements.

    Developed a nationwide comprehensive inventory system for identifying and tracking
     all MTE through the network, such as an automated system 14 to improve monitoring
     and tracking of MTE inventories.
12
   Four of the five significant recommendations from our previously issued report Management of Mail Transport
Equipment - National Analysis - NL-AR-10-009. are in an open status.
13
   Management of Mail Transport Equipment – National Analysis (Report Number NL-AR-10-009, dated September
29, 2010). Refer to Prior Audit Coverage for a brief summary of related reports.
14
   In Management Actions, we note that funding was secured for the development of an automated system. Phase 1
of implementation is planned for September 2012.


                                                       6
Mail Transport Equipment –                                                                             NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



    Provided sufficient resources at areas, districts, and plants to monitor and manage
     MTE 15 in the field or at mailers.

Further, while the Postal Service is now exploring several industry-related best practices
(including the use of a closed-loop system, 16 Radio-frequency identification (RFID) and
Global Positioning System (GPS) seeding, 17 and an information system to provide
visibility of MTE inventory), they have not adopted and implemented many industry-
related “best practices” for the control and management of MTE.

The complex system of mail movement and the MTE that holds that mail create many
complications, challenges, and considerations for establishing a closed-loop system and
tracking MTE. The system involves a number of external parties which increases the
chance of leakage. Further, as noted earlier, the mailers’ hand off of MTE to business
partners makes it more challenging for the Postal Service to track MTE distribution and
return. For example, moving MTE from a printer to a consolidator, possibly to another
consolidator, and then to a trucking company before returning to the Postal Service
network). For a list of best practices and control activities for developing a managed
pallets program, including the Postal Service’s actions or position, see Appendix D.

Overall, we estimate that MTE purchases of $24.3 million in FY 2011 and $23.6 million
in FY 2012 are at risk of loss, theft, and misuse due to control weaknesses.

Shrinking Mail Transport Equipment Budgets

We also found that, in addition to the shortages, the FY 2011 MTE budget was not
adequate to fill MTE demand during the fall 2011 mailing season. Specifically, it was
based solely on budgetary restraints, as opposed to forecasted requirements. The
Postal Service stated that when the shortages materialized, they did not have the
necessary on-hand inventory levels to address the shortages and also meet the
increased and unexpected demand. In fact, MTE budgets have regularly been reduced
each year since 2006, with the exception of 2008. These budget restrictions had more
to do with the Postal Service’s financial condition than the linking of any reduction in

MTE needs to the significant reductions in mail volume experienced over the past
5 years.




15
   In Management Actions, we note that there are plans to provide resources in the areas and at districts and plants
for MTE monitoring and management.
16
   A “closed-loop” distribution system would help ensure that MTE provided to customers is returned to the Postal
Service.
17
   The Postal Service initiated a pilot program by seeding sample pallets with GPS to track and identify pallets
inappropriately removed from the network and also to determine the amount of time it takes for a pallet to return to
the network after distribution for mailer use.


                                                          7
Mail Transport Equipment –                                                                          NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

                                    MTE Purchases FY 2006-2011




                     Source: Postal Service.

In an attempt to mitigate budget shortfalls, stretch available funding, and ensure the
availability of equipment from suppliers, the Postal Service elected to purchase less
expensive and less durable MTE, such as pressed wood pallets and cardboard trays.




 Less durable fiberboard letter trays at the Long Beach       Damaged wood slat pallets at the San Francisco MTESC
        Processing and Distribution Center on                        in Tracy, CA, on December 21, 2011.
                    May 10, 2012.                                                Source: OIG.
                     Source: OIG.



The shift to using less durable MTE led to an increase in condemnation of less durable
MTE types due to damage and breakage, thereby substituting the ongoing problems
associated with leakage of plastic MTE. Overall, the decision not to purchase the more
costly and durable plastic MTE proved to be not as beneficial as the Postal Service
anticipated. In addition, these items create safety concerns within the mailer community
and are not the best value. Specifically, less durable MTE does not provide the lowest
total cost of ownership based on the total lifecycle cost of these items. Additionally, the
shift to less durable MTE resulted in numerous customer complaints (see Appendix C
for several mailer comments on wood pallets). The Postal Service has subsequently
concluded that plastic MTE purchases provide the best value on a cost per use basis
and better serve the needs of the mailer community and Postal Service facilities.




                                                          8
Mail Transport Equipment –                                                                             NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

We determined the Postal Service could have minimized emergency purchases with
adequate planning and controls and avoided purchases of less durable MTE totaling
$11.1 million in FY 2011 and $15.6 million in FY 2012.

Management Actions

In response to the unprecedented MTE shortages experienced in the 2011 fall mailing
season and during our review, the Postal Service has taken subsequent actions that
enhance the management of and reduce the risks of shortages of MTE going forward.
The Postal Service has taken steps to include:

    Making a business case justifying the purchase of significant quantities of MTE and
     a shift back to more durable plastic MTE in lieu of wood and fiberboard, resulting in
     additional funding of $77 million in 2012. The total FY 2012 MTE budget is now
     about $120 million.

    Continuing to work on updating the Postal Operations Manual (POM) section
     relevant to MTE and Handbook PO-502, which have not been updated in about 2
     decades.

    Securing funding to continue developing an automated management information and
     tracking system for MTE at facilities and mailers. The Phase I launch is planned for
     September 5, 2012 and the Phase II launch in early 2013. 18

    Renewed recovery efforts, including newly manufactured flat tubs that have the MTE
     hotline number and an email address printed on them and the U.S. Postal Inspection
     Service (Inspection Service) initiated Phase III of their Equipment Recovery Project
     (ERP) at over 200 recycling 19 locations throughout the U.S. The total estimated
     value of MTE recovered was nearly $300,000.

    Providing a live MTE Online Ordering System (MTEOR)/MTE help desk during
     normal business hours, which provides for improved customer satisfaction,
     increased tips on misused/leaking MTE, more complete and accurate information
     obtained from callers and improved tracking on follow-up of equipment recovery.

    Conducting Lean Six Sigma 20 projects looking at MTE to reduce excess MTE at
     delivery and retail units, in plants, and at mailers.



18
   Phase 1 will cover mailers supplied MTE by the MTESC network and will provide for online ordering and visibility to
order status. Phase 2 will include all other mailers (not just mailers serviced by the MTESC network) and Postal
Service facilities.
19
   Recycling locations are referring to businesses that handle various discarded items and turn materials that would
otherwise become waste into valuable resources.
20
   Lean Six Sigma refers to a combination of two distinct business management strategies, i.e., Lean Manufacturing
and Six Sigma. A lean manufacturing strategy concentrates on creating more value with less work. Six Sigma
identifies and eliminates defects in product development.


                                                          9
Mail Transport Equipment –                                                    NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

   MTE Coordinators have been identified for each Area, District, and plant. Areas and
    Districts have an MTE team lead by the MTE coordinator. Further, weekly web
    meetings are held for Area Coordinators/teams, and monthly webinars are held for
    plant and District Coordinators/teams.

Recommendations

We recommend the vice president, Network Operations, with input from the vice
presidents, Supply Management and Consumer and Industry Affairs (if necessary):

1. Finalize procedures, processes, and guidelines to ensure there is effective planning
   and budgeting for Mail Transport Equipment (MTE) needs for the fall mailing season,
   taking into consideration operational and customer needs, financial condition, MTE
   leakage, and MTE condemnation.

2. Finalize implementation of prior U.S. Postal Service Office of Inspector General
   recommendations from the Management of Mail Transport Equipment (MTE) –
   National Analysis audit (Report Number NL-AR-10-009, dated September 29, 2010)
   covering an automated inventory and tracking system, ensuring adequate resources
   for areas and plants, and update policies and procedures that support current MTE
   operational requirements.

3. Finalize processes and procedures (considering costs and benefits) to limit or better
   control distribution and have visibility of Mail Transport Equipment distributed to
   mailers and other customers.

4. Evaluate the best practices identified in this report and identify any applicable
   industry best practices for implementation (considering costs and benefits), such as
   the viability of implementing Radio Frequency Identification technology to control the
   leakage of plastic pallets and reduce annual purchase of replacement plastic pallets.

Management’s Comments

Management agreed with our findings and recommendations. They stated the model for
determining MTE purchases will be revised to factor-in more weight to the higher
demand period of the fall mailing season. Further, preliminary budgeting for FY 2013
has provided sufficient funding to begin purchase of plastic products with long lead
times. In addition, inventory levels and demand will be monitored throughout the fall
mailing season, and the demand/purchase model will be run again in November 2012.
They also noted that demand at this time may be artificially high due to mailer
apprehension over prior MTE shortages.

Management listed several actions relating to finalizing implementation of prior OIG
recommendations, including identifying MTE resources for areas, districts, and plants;
the continued development of MTEOR in 2013, which will address planned automated




                                           10
Mail Transport Equipment –                                                     NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

inventory tracking for plants and mailers; and, the update of MTE policies and
procedures to encompass changes in the MTE program.

Management stated that a number of activities and changes have taken place to limit
and better control the distribution of MTE and enhance visibility of MTE with mailers.
Lastly, management stated they will explore industry best practices for feasibility in use
in the MTE program. See Appendix F for management‘s comments, in their entirety.

In subsequent correspondence, management stated they disagreed with the monetary
impact contained in the report because the best value for MTE cannot be limited to the
type of materials being bought. Additionally, they said you have to consider situational
constraints, such as sudden spike in customers’ needs, funding availability, suppliers’
capacity and the lead time necessary to purchase the raw materials and produce the
MTE. Management also said that this tradeoff is part of setting the MTE mix and
ignoring them would lead to a loss of revenue due to MTE shortages. Lastly, they
believe that an element of opportunity costs should be factored in to the calculation of
the monetary impact.

Evaluation of Management’s Comments

The U.S. Postal Service OIG considers management‘s comments responsive to the
recommendations and corrective actions should resolve the issues identified in the
report.

Regarding monetary impact, as noted in the report, we understand that the Postal
Service will at times need less durable MTE, especially to fill emergency orders;
however, we questioned the purchases of wood and cardboard MTE in FYs 2011 and
2012 because the Postal Service could have mitigated the need for these purchases if
adequate planning and controls were in place. Further, the Postal Service had no
procedures or processes in place to determine an optimal mix of MTE, and the mix was
basically driven by the need to make emergency purchases of MTE to address the
critical shortages. As such, we continue to believe the calculated questioned costs are
appropriate and reasonable based on the information available.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            11
Mail Transport Equipment –                                                         NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

                              Appendix A: Additional Information

Background

MTE are containers of various types used to hold mail during processing and
transportation within or between Postal Service facilities, its contractors, its mailers, and
other external customers. As such, MTE is a critical component of Postal Service and
mailer operations. There are various types of MTE and our audit focused on the
following types:

   Pallets made of plastic, wood (known as wood slat), or chipboard (known as
    presswood).

   Trays of varying sizes for letters (‘letter trays’) and flats (‘flat tubs’).

The Postal Service’s goal is to have sufficient quantities of the right type of MTE in the
right place at the right time to meet Postal Service and customer needs. MTE has been
historically viewed as being consumable or expendable and provided to mailers and
other customers as a courtesy. The Postal Service does not carry MTE inventory as an
asset for financial reporting purposes and does not know the true size or value of its
MTE inventory nationally.

Objectives, Scope, and Methodology

To complete this audit we interviewed headquarters (HQ) officials and staff, including
Network Operations, Supply Management, and Consumer and Industry Affairs to
determine causes for the MTE shortages during last fall’s mailing season; and discuss
corrective actions taken and planned to avoid future shortages. Topics of discussion
with HQ officials included resource issues at areas and plants and the need to have
dedicated, trained, and skilled MTE resources in the field.

We also:

   Gathered and assessed data on MTE forecasting, budgeting, and purchasing.

   Interviewed Mailers’ Technical Advisory Committee (MTAC) members and other
    mailers to determine their insights into the conditions, causes and impact of the MTE
    shortages on their operations

   Used social media to reach out to mailers and other customers as well as Postal
    Service employees to identify their concerns and experiences.

   Researched on a limited basis opportunities to limit distribution of MTE by restricting
    usage to mailers that meet defined criteria.




                                                 12
Mail Transport Equipment –                                                   NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

   Researched ways to enhance distribution of MTE based on mailers’ forecasted
    volumes and MTE requirements.

   Researched on a limited basis to make MTE recoupment efforts more robust.

   Evaluated the effectiveness of MTE inventory and tracking with existing systems, in
    the Enterprise Data Warehouse (EDW) through the Mail Condition Reporting
    System, the MTE Support System (MTESS), and other systems.

   Analyzed the total cost of ownership of plastic MTE compared to less durable MTE,
    such as wood slat, presswood, and cardboard, to determine the best value for the
    Postal Service.

We conducted this performance audit from March through September 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 28, 2012. Management
requested the opportunity to provide additional comments on our observations and
conclusions and we addressed their comments where appropriate.

We assessed the reliability of the computer-generated purchase data used in our
analyses by reviewing existing information about the data. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

As reflected in the table below, the OIG has issued five audit reports since December
2008 addressing the effectiveness of the Postal Service’s management and control of
MTE. We found common weaknesses, including lack of comprehensive and clear policy
and guidance, lack of a nationwide comprehensive inventory system for identifying and
tracking all MTE, and insufficient MTE resources allocated in the field to monitor and
control MTE and ensure compliance with MTE requirements. In addition, we issued an
audit report addressing the performance of Postal Service processing operations during
the 2010 fall mailing season.




                                           13
     Mail Transport Equipment –                                                                    NL-AR-12-011
      Shortages of Pallets, Tubs, and Trays –
      Fall 2011 Mailing Season




                                                  Final           Monetary
                             Report              Report          Impact (in
    Report Title             Number               Date            millions)          Report Results
Management of Mail         NL-AR-11-006         9/23/2011          None       There was an imbalance of MTE
Transport Equipment –                                                         rolling stock in the network, with
Needs, Distribution, and                                                      some network distribution
Use                                                                           centers (NDCs) having excess
                                                                              rolling stock while others had a
                                                                              shortage of rolling stock. We
                                                                              analyzed rolling stock at the 21
                                                                              NDCs and determined that, on
                                                                              average, there were over 24,500
                                                                              excess over-the-road containers
                                                                              per month on-hand within the
                                                                              NDC network. Management
                                                                              agreed with all of the
                                                                              recommendations.
Postal Service             NO-AR-11-007         9/7/2011           None       Postal Service management
Performance During the                                                        failed to provide adequate
2010 Fall Mailing                                                             oversight, including failing to
Season                                                                        adjust mail flow, sort plans, and
                                                                              staffing timely to meet
                                                                              operational changes during the
                                                                              2010 fall mailing season.
                                                                              Further, Business Service
                                                                              Network representatives did not
                                                                              always provide timely feedback
                                                                              to business mailers regarding
                                                                              mail delays. Management
                                                                              agreed with all of the
                                                                              recommendations.
Management of Mail         NL-AR-10-009         9/29/2010          $29.1      Postal Service HQ has not
Transport Equipment –                                                         provided updated policy and
National Analysis                                                             guidance, does not have a
                                                                              nationwide comprehensive
                                                                              inventory system for identifying
                                                                              and tracking all MTE throughout
                                                                              the network and at mailers, and
                                                                              has not ensured that areas have
                                                                              sufficient resources to monitor
                                                                              management of MTE and ensure
                                                                              appropriate compliance with
                                                                              national MTE requirements.
                                                                              Management agreed with all of
                                                                              the recommendations.
Management of Mail         NL-AR-10-004         3/17/2010          None       The Eastern Area’s effectiveness
Transport Equipment –                                                         was limited over the
Eastern Area                                                                  management and control of MTE.
                                                                              Although the Eastern Area has
                                                                              been identified as a deficit area



                                                            14
     Mail Transport Equipment –                                                                  NL-AR-12-011
      Shortages of Pallets, Tubs, and Trays –
      Fall 2011 Mailing Season


                                                  Final         Monetary
                             Report              Report        Impact (in
    Report Title             Number               Date          millions)          Report Results
                                                                            and often experienced MTE
                                                                            shortages, area and local officials
                                                                            did not always ensure adequate
                                                                            controls over inventory and
                                                                            accountability processes required
                                                                            by national MTE requirements.
                                                                            Management agreed with all of
                                                                            the recommendations.
Management of Mail         NL-AR-10-001         10/22/2009       None       The Pacific Area’s management
Transport Equipment –                                                       and control of MTE was not
Pacific Area                                                                effective. We determined that
                                                                            area management has taken
                                                                            some positive steps to help
                                                                            manage MTE through
                                                                            development of a standard
                                                                            operating procedure for MTE.
                                                                            However, the Pacific Area did not
                                                                            always ensure compliance with
                                                                            inventory and accounting
                                                                            processes and did not fully
                                                                            execute their responsibilities to
                                                                            control and safeguard MTE
                                                                            assets. Management agreed with
                                                                            all of the recommendations.
Radio Frequency            DA-AR-09-002         12/24/2008       $126.8     The Postal Service has
Identification                                                              opportunities to adopt RFID
Technology: Asset                                                           technology to improve the
Management                                                                  management of MTE inventories
                                                                            and minimize longstanding pallet
                                                                            losses; however management
                                                                            disagreed that RFID would
                                                                            provide a solution for pallet
                                                                            leakage outside their network. As
                                                                            of 2012, industry literature
                                                                            indicates that RFID tag costs
                                                                            have fallen about 33.3 percent
                                                                            since this report was issued.
                                                                            Management agreed with all of
                                                                            the recommendations.




                                                          15
Mail Transport Equipment –                                                 NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



Other Initiatives Covering MTE

In addition to the OIG audits listed above, the Postal Service, MTAC and Inspection
Service have undertaken a number of initiatives to address MTE issues to strengthen
MTE management. See Appendix E for a list of these Postal Service, MTAC, and
Inspection Service efforts.




                                           16
Mail Transport Equipment –                                                                                 NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



                              Appendix B: Monetary and Other Impacts

                                                Monetary Impacts

         Recommendation                             Impact Category                              Amount

                     1                 Questioned Costs (QC) 21                                 $26,703,785


QC relate to the emergency purchase 22 of less durable MTE given that its functionality
and usability do not bring best value based on a per use basis. While we acknowledge
that the purchases were made to meet immediate operational needs, improved planning
and controls could have minimized the need for emergency purchases.

We summed the spend values for the types of MTE noted below using eBuy23 data for
FYs 2011 and 2012. We worked with the Postal Service to determine estimated
shipping costs for FY 2012 purchases not yet finalized in eBuy. We offset the
questioned costs relating to the purchase of less durable MTE with a calculated
equivalent value of plastic MTE. The chart below represents questioned costs after
factoring the calculated offset for the plastic pallets. This value is based on a durability
ratio and an average cost of equivalent plastic MTE.

                         Questioned Costs Calculations for MTE Purchases

       Description                                 FY 2011 QC              FY 2012 QC               Total QC
       Wood and Presswood Pallets                      $7,233,398             $9,944,485            $17,177,883
       Cardboard Trays                                  3,911,490              5,614,412              9,525,902
       Total                                         $11,144,888             $15,558,897            $26,703,785
      Source: OIG Calculations.

We determined these items were not the ‘best value’ based on cost-per-use studies
completed 24 by the Postal Service. 25 Best value is defined as the outcome that provides
the optimal combination of elements such as lowest total cost of ownership, technology,
innovation and efficiency, assurance of supply, and quality relative to the Postal
Service's needs.

21
    Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, or contract.
22
    In order to meet MTE demand, emergency purchases had to be made to ensure continued operations. These
emergency purchases covered wood pallets and cardboard trays due to limited financial resources and the required
“lead time” to purchase more durable plastic MTE (the lead time for plastic pallets, for example, could be as long as
three months from request for purchase to receipt of the initial delivery phase of plastic products).
23
    eBuy is the system used to order MTE inventory from suppliers. eBuy is an electronic commerce portal that
provides the Postal Service’s employees with electronic requisitioning, approval, and invoice certification capability.
eBuy is the Postal Service’s preferred method of order placement.
24
    The Postal Service conducted a study in 1994 on the lifespan of plastic pallets compared to Litco Brand presswood
pallets, still in service today. The study supported the use and value of plastic pallets.
25
    The Postal Service confirmed that plastic letter trays are a better value than fiberboard trays based on testing of the
lifecycle of plastic letter trays in a recent Lean Six Sigma study.


                                                            17
Mail Transport Equipment –                                                                                    NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



                                                   Other Impacts

                Recommendation                       Impact Category                       Amount

                             2                         Assets at Risk 26                 $47,906,701

                           1                        Goodwill/Branding 27                                  -
                           1                         Physical Safety 28                                   -
                           1                        Revenue at Risk 29                         N/A 30
                         Total                                                           $47,906,701

Assets at Risk

We calculated assets at risk based on the following methodology and assumptions:

    The Postal Service classifies annual MTE purchases as an expense for financial
     reporting purposes. However, the Postal Service considers MTE an
     operational asset for non-accounting purposes since it is “an item the Postal
     Service must purchase and inventory for fulfillment of external or internal
     customer needs.” 31

    We identified assets at risk as the value of plastic MTE by type. We gathered
     purchase data from eBuy for FYs 2011 and 2012.

    Because we focused on FYs 2011 and 2012 (the most recent and current period),
     we did not factor in useful life since these items have many years remaining.
     Additionally, we did not reduce our calculated total by a condemnation percentage,
     since condemnation of new plastic equipment is unlikely.

    Based on our audit observations of MTE misuse and misappropriation, Postal
     Service experience with MTE “leakage” and the Inspection Service’s asset
     recovery projects, we consider all MTE plastic pallets and trays purchased in FYs
     2011 and 2012 to be at risk of loss, theft, or misuse.




26
   Assets that are at risk of loss because of inadequate internal controls.
27
   An actual or potential event or problem that could harm the reputation of the Postal Service.
28
   Physical operations assets that are unsafe or at risk of loss because of inadequate physical protection or safety
practices, and includes the safety of employees and others.
29
   Revenue the Postal Service is at risk of losing if mailers seek alternative solutions for service currently provided by
the Postal Service.
30
   We could not estimate the revenue at risk related to the fall 2011 MTE shortages due to data limitations. However,
continued MTE shortages impacting mailer operations are likely to place future Postal Service revenue at risk.
31
   The Postal Service defined MTE as an operational asset during a presentation entitled Asset Management
Integration at a Supply Management conference on November 6, 2006.


                                                            18
Mail Transport Equipment –                                                                           NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

We summed the costs of these items for FYs 2011 and 2012. The FY 2011 costs are
based on eBuy data and FY 2012 costs are based on the quantity of plastic MTE
received as of May 30, 2012.

The following is a summary for the purchases of plastic pallets, tubs, and trays shown
by type and fiscal year:

                                  MTE Purchases FY 2011 - 2012 at Risk

      Description                               FY 2011                  FY 2012                   Total
      Plastic pallet (light weight)              $18,805,500              $10,570,392              $29,375,892
      Flats tubs (plastic)                          5,544,000                9,691,380              15,235,380
      MM trays (plastic)                                       -             3,182,253               3,182,253
      EMM trays (plastic)                                      -               113,176                 113,176
      Total                                       $24,349,500             $23,557,201              $47,906,701
     Source: Postal Service

Goodwill/Branding

Mailers have voiced concerns about MTE for nearly 20 years through groups such as
the MTAC. MTE shortages during peak season are not unusual. However, the
unprecedented severity of MTE shortages during the fall 2011 mailing season created
several operational issues for mailers. In response, the Postal Service received over
5,000 complaints through its field Business Service Network relating to MTE availability
between September 2011 and January 2012. Mailer concerns included:

      Not having MTE, partial deliveries, or outright canceled orders.
      Getting the wrong type of MTE. 32
      Receiving damaged wood pallets.
      Approvals to purchase their own MTE.
      Exceptions to deviate from standard mail staging (such as brick stacking).

The essence of the Postal Service brand is customer perception. The control and
management weaknesses and MTE shortages discusses throughout this report could
pose a high risk that mailers and the public will negatively perceive the Postal Service’s
ability to properly manage its assets and service its customers.

Physical Safety

The use of wood slat and press wood pallets created safety concerns for mailers.
Specifically, when these pallets are damaged there are risks associated with splintered
wood, exposed nails, mold, and the possibility of collapse. For example, a

32
  According to the Postal Service, a mailer will deem MTE the “wrong” type because it is not what they ordered. For
example, the Postal Service may have to substitute mailer orders of plastic pallets for wood pallets or extended
managed mail (EMM) letter trays for MM letter trays based on inventory on-hand. These are considered acceptable
substitutes by the Postal Service even though mailers prefer plastic pallets and EMM letter trays.


                                                         19
Mail Transport Equipment –                                                                         NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

representative from a large mailer expressed concern about the composition and
fragility of wood slat and press wood pallets, placing employees at risk of injury and
exposing mailers to potential safety violations.

Revenue at Risk

Critical shortages of MTE during the fall 2011 mailing season impacted Postal Service
and mailer operations. These shortages required the Postal Service to grant operational
exceptions to the mailers, resulting in additional labor and equipment costs. Mailers and
their associations contacted all levels of management at the Postal Service, including
senior executives and the Inspector General to voice their concerns. The Postal Service
received over 5,000 complaints 33 from mailers between September 2011 and January
2012. Mailers were generally able to insulate their customers and mail owners from the
impact of MTE shortages; however, persistent MTE shortages in the future may require
mailers to raise their rates to cover these labor and equipment costs or encourage mail
owners to seek alternative methods to communicate or ship. This would put future
Postal Service revenue at risk. While we could not estimate the revenue at risk related
to the fall 2011 MTE shortages, it is clear that subsequent shortages of MTE and
negative impact on mailer operations would place Postal Service revenue at risk.




33
  These complaints from mailers were mostly regarding MTE availability. There were also complaints addressing
safety concerns stemming from the use of less durable wood pallets; however, we were not able to determine the
number of mailer complaints related to safety concerns.


                                                       20
Mail Transport Equipment –                                                                              NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season



                         Appendix C: Mailer Comments on Wood Pallets

During our audit, representatives of the mailer community raised concerns about the
types of pallets they were receiving with the BSN on OIG blogs and project pages and
during audit interviews. Examples of the concerns raised by mailers are below (a
description of the source is provided below the comment):

A June 2012 Complaint from a Major Mailer to the Postal Service

         The "pressed wood" skids . . . do not hold up well in our
         manufacturing process. They break very easily under normal
         handling conditions and leave chunks of skid all around the
         manufacturing floor. These chunks present a big safety and
         housekeeping issue. We recently had an OSHA recordable and
         lost time injury involving one of these chunks. . . Avoiding future
         use of these skids in our plant would be the optimum solution. 34




Source: Postal Service mailer.                          Source: Postal Service mailer.

A large mailer provided this photograph in a            A representative of a large printing company said
complaint to the Postal Service in June 2012 about      that presswood pallets are susceptible to
presswood pallets breaking easily under normal          environmental conditions and can accumulate
operations.                                             moisture that promotes mold growth.

Examples of Mailer Posting to our Audit Projects Page (March-April 2012)

“We received nothing but wooden pallets this year. This caused us a lot of problems.
Several of them were rotten and broken. Our product is heavy and the pallets often
broke before they were even half filled. The boards would poke through the boxes and
damage our perishable product. We really need plastic pallets."


34
   The Postal Service stated that pressed wood or wood slat pallets are not inherently dangerous just because plastic
pallets can survive extreme conditions and treatment. Regarding the pallet with mold shown above, they stated they
require storage of all pallets indoors, and all mailers are required to do the same. However, during audit observations
for an unrelated audit project in August 2012, auditors observed pressed wood pallets being stored in the yard and
exposed to all elements, including rain.


                                                          21
Mail Transport Equipment –                                                                              NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

"Supply only plastic pallets. Using wood and press board pallets causes more
injuries. This is due to the wood splinters and weight of these pallets. Plastic is
much easier to handle and stack.”

A Mailer Testimonial During an Interview with the OIG (December 2011) 35

One mailer advised that when the presswood pallets break apart it makes the floors
very slippery and the mailer has to clean more often to prevent slip and falls. The mailer
also encounters ergonomic issues when pallets exceed 30 pounds in weight. They
stated that both the presswood and wood slat pallets were extremely heavy to lift.
Overall, they felt wood slat and presswood pallets are not stable and some contain
nails, noting they break and jam the mailer’s equipment.




35
     This testimonial was taken during a prior OIG survey in late December 2011, which preceded this audit.


                                                           22
Mail Transport Equipment –                                                                       NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

                                     Appendix D: Best Practices

 Best Practices 36 for Developing                                                                Adopted -
    a Managed Pallet Program                   Postal Service Action or Position                  Yes/No
Outsource management of the                    The Postal Service discussed this                    No
pallet program to companies like               with a rental company. Costs were
CHEP, PECO, Intelligent Global                 high because of the open nature of
Pooling Systems (iGPS), and                    the network.
others.
Engage in an exchange program.                 The administrative burden is                          No
                                               unlikely to be effective. Postal
                                               Service revenue is perceived to
                                               include the cost of MTE.
Restrict plastic MTE to customers              The Postal Service has started to                     No
where a closed-loop management                 provide plastic pallets only to
program can be supported.                      customers who can make the case
                                               of need based on automation
                                               requirements.
Provide the returnable transport               The Postal Service provides MTE                       Yes
items needed to transport the                  to all its business customers.
product.
Have dedicated and                             There are plans to have MTE                           No
knowledgeable staff in the areas               coordinators increasing the
that oversee MTE assets and work               ‘line-of-sight’ (see MTE National
with all parties (internal and                 Analysis report 37 –
external) to reduce misuse, theft,             Recommendation 4.)
and hoarding of MTE assets
through coordination, monitoring,
and site audits.
Have an automated management                   Visibility with an automated                           No
system for the consistent                      management system is limited to
standardized and universal                     MTE passing through MTESC
collection of MTE data to provide              with MTESS MTE (See the
enhanced visibility into inventory             National Analysis report –
and use (both internally and                   Recommendation 2).
externally).




36
   We determined industry best practices by gaining an understanding of pallet management at large domestic and
international companies, such as restaurant chains, wholesalers, manufacturers, and grocers. Additionally, we
reviewed MTAC work group documents addressing opportunities to improve the management of MTE; spoke with
major mailers on suggestions to improve MTE management; and reviewed industry articles and blogs on ways to
improve MTE management. Further, we reviewed domestic and global industry studies related to pallet management
and control.
37
   The audit of the Management of Mail Transport Equipment – National Analysis NL-AR-10-009. Recommendations
are listed on page 4 of the document.


                                                      23
Mail Transport Equipment –                                                                              NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season

 Best Practices 36 for Developing                                                                       Adopted -
   a Managed Pallet Program                       Postal Service Action or Position                      Yes/No
Have and enforce comprehensive                    The POM is out of date (see the                          No
MTE policies and procedures                       MTE National Analysis report –
addressing inventory and                          Recommendations 1 and 3).
accountability controls, including
asset inventory and tracking.
Have an asset recovery team that                  The MTE group works with areas                           Yes 38
works with all parties involved to                and plants to recover MTE. Further,
safeguard pallet assets.                          the Inspection Service works with
                                                  the Postal Service and local law
                                                  enforcement to recover Postal
                                                  Service assets.
Develop clear communication with                  The Postal Service has increased                          Yes
all participants in the supply chain.             the awareness program and
                                                  continues to do so both inside the
                                                  Postal Service (awareness
                                                  campaign) and at customers’
                                                  (MTAC) and at industry sites.
MTE that are particularly                         Prior OIG reports and Inspection                           No
vulnerable to loss, theft, damage,                Service recovery projects have
or unauthorized use are physically                shown there are continued
secured and access to them                        weaknesses in MTE security.
controlled.
MTE are periodically counted and                  Empty MTE in plants is manually                            No
compared to control records and                   ‘estimated’ weekly, but there are
exceptions examined.                              weaknesses in these inventory
                                                  counts and their ability to ensure
                                                  full compliance. Further, counts are
                                                  not compared to any expected
                                                  result.
Dialogue with pallet recyclers                    The Inspection Service has been                           Yes
through a letter campaign that                    engaging recyclers.
informs them of the proprietary
nature of postal pallets.
Set up a 1-800 telephone number                   The Postal Service established and                        Yes
for pallet recyclers to call if they              published its 1-800 recovery
have stray pallets.                               telephone number. Additionally,
                                                  many equipment types have the
                                                  HQ-MTE hotline telephone number.



38
  While both Postal Service HQ and the Inspection Service have undertaken efforts to improve their asset control
and recovery efforts, there are still many problems in the field with timely recovery efforts. Several customers have
noted that even when they contact the Postal Service to report excess or misused MTE, the Postal Service is often
slow in responding and physically recovering the MTE assets.


                                                          24
 Mail Transport Equipment –                                                                                   NL-AR-12-011
  Shortages of Pallets, Tubs, and Trays –
  Fall 2011 Mailing Season

  Best Practices 36 for Developing                                                                           Adopted -
     a Managed Pallet Program                        Postal Service Action or Position                        Yes/No
 Seed plastic pallets with GPS                       The Postal Service has been                               Yes
 devices to identify locations of risk               testing a seeding program for
 and collect pallets before they are                 several years now.
 lost.
 Quickly return telephone calls and                  There are concerns regarding                                 No
 work to reclaim stray assets.                       follow-up at the local level to
                                                     recover assets.
 Develop procedures to adequately                    We did not identify a Postal Service                         No
 compensate recyclers for their                      Action of Position for this Best
 costs while protecting the                          Practice.
 ownership interest of your asset.
 Identifying sources of major pallet                 The Postal Service has not                                   No
 leakage, through RFID,                              identified specific facilities or
 observation, and so forth.                          mailers outside of its GPS program
                                                     and the Inspection Service recovery
                                                     efforts. Further, there is no RFID
 Establish custody agreements                        There is policy regarding the use of                         Yes
 where users agree to terms                          MTE; however, audits to monitor
 specified by returnable transport                   use and compliance are not
 item (RTI) owners.                                  regularly conducted due to
                                                     resource issues.
 Customer and facility MTE                           Customer MTE balance information                             No
 accounts have reconciliations of                    is not collected and facilities have
 summary information to supporting                   manual and often inaccurate
 detail and checking the accuracy                    inventory counts.
 of MTE balances.
 Charge a fee for excessive use or                   There is policy regarding the                                No
 capturing of a pooled pallet.                       charge for lost MTE 39 but not
                                                     excessive (hoarding) MTE.
 Conduct regular analysis to gauge                   The Postal Service is engaged with                           Yes
 the effectiveness of new pallet                     the Inspection Service, the OIG,
 management initiatives.                             and the industry to improve pallet
                                                     management.
Source: OIG Research




 39
    POM Section 581.42 states that mailers are responsible for the use, care, and return of MTE and holds them
 financially liable for MTE loss or destruction. However, this policy is about 20 years old, is still in the process of being
 revised, and there is no process in place for tracking or identifying lost or damaged MTE or for collecting money from
 mailers for lost or damaged MTE.


                                                              25
     Mail Transport Equipment –                                                                       NL-AR-12-011
      Shortages of Pallets, Tubs, and Trays –
      Fall 2011 Mailing Season

                        Appendix E: Other Mail Transport Equipment Initiatives

     MTE issues and shortages are nothing new to the Postal Service. The Postal Service,
     MTAC and Inspection Service have undertaken a number of initiatives to address MTE
     issues and strengthen MTE management over nearly 2 decades. The Postal Service,
     MTAC, and Inspection Service efforts are listed below.

           MTE Initiatives                        Date              Impact                   Results
Equipment Recovery         ERP 3                Ongoing           ERP III        1) There are ongoing Postal
Project III – FY 2012                                             $294,182       Service MTE accountability and
                                                                                 recovery efforts which included
                                                                                 almost 26,000 plastic pallets.
                                                                                 2) The Inspection Service
                                                                                 conducted a third ERP III at
                                                                                 recycling locations throughout
                                                                                 the United States in November
                                                                                 2011 which was primarily for
                                                                                 plastic pallets from recycling
                                                                                 facilities.
Postal Service             Amnesty              11/9/2011         Unknown        The amnesty period to return
announced a 2-week                                                               MTE ran from November
amnesty of pallets,                                                              12–26, 2011.
trays, and other
equipment
Equipment Recovery         ERP 2                1/21/2010         $272,225 for   During the second equipment
Project II - November                                             pallets and    recovery project, inspectors
16-20, 2009                                                       $1,038,129     recovered 13,721 plastic pallets.
                                                                  other types
                                                                  of MTE
Equipment Recovery         ERP                  1/12/2009         $1,914,178     The Inspection Service, in
Project - November                                                               coordination with the Postal
17-21, 2008                                                                      Service, recognized there was a
                                                                                 concern regarding misuse and
                                                                                 misappropriation of large
                                                                                 quantities of postal equipment.
                                                                                 The loss of this equipment
                                                                                 represents a significant loss to
                                                                                 the Postal Service. Therefore,
                                                                                 the Inspection Service has been
                                                                                 tasked with this continuous
                                                                                 effort. A total of 268,341 items of
                                                                                 MTE were recovered
MTE Forecasting and        Workgroup            11/08/2007        None           In order to track or forecast MTE,
Tracking – MTAC            108                                                   there first needs to be a
Workgroup 2006/2007                                                              consistent, standardized, and
                                                                                 near universal collection of data
                                                                                 to make a baseline for tracking
                                                                                 and forecasting.




                                                             26
       Mail Transport Equipment –                                                                NL-AR-12-011
        Shortages of Pallets, Tubs, and Trays –
        Fall 2011 Mailing Season


             MTE Initiatives                        Date            Impact              Results
  MTAC Meeting – MTE         Historical           6/15/1994        None      We reviewed MTAC meeting
  Issues & Concerns                                                          notes and noted that forecasting
                                                                             issues and peak season
                                                                             shortfalls have been an issue for
                                                                             many years, along with persistent
                                                                             causes which include misuse and
                                                                             unauthorized use of MTE.
Source: OIG Research




                                                              27
Mail Transport Equipment –                                      NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season


                            Appendix F: Management’s Comments




                                           28
Mail Transport Equipment –                      NL-AR-12-011
 Shortages of Pallets, Tubs, and Trays –
 Fall 2011 Mailing Season




                                           29
